           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      AVAILABILITY AND USE OF
       VOCATIONAL EXPERTS


      May 2012    A-12-11-11124




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   May 30, 2012                                                        Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Availability and Use of Vocational Experts (A-12-11-11124)



        OBJECTIVE
        The objective of our review was to evaluate the availability and use of vocational
        experts (VE) at the Social Security Administration’s (SSA) hearings offices.

        BACKGROUND
        Claimants who are denied disability benefits at the State disability determination
        services (DDS) can appeal the decision. A claimant has the right to appeal any
        decision SSA makes on whether they are entitled to Social Security benefits or are
        eligible for Supplemental Security Income (SSI) payments. SSA's Office of Disability
        Adjudication and Review (ODAR) administers SSA’s hearings and appeals program.

        ODAR's field structure has over 8,500 employees, including approximately
        1,400 administrative law judges (ALJ) working in 10 regional offices, and over
        160 hearing offices nationwide. 1 An ALJ generally conducts a hearing with the claimant
        at a hearing office or permanent remote site either in person or via video
        teleconferencing technology.

        ALJs may request witnesses, such as VEs, to testify at hearings. The ALJ decides
        whether to receive the VE opinion at the hearing, by telephone, by videoconference, or
        in response to written interrogatories. While the Social Security Act does not
        specifically require that the ALJ obtain VE testimony, it requires consideration of matters
        within the VE’s expertise, such as whether the claimant can engage in substantial
        gainful activity in the national economy. 2 As part of the disability process for adults, an
        ALJ may request a VE’s opinion when determining a claimant’s disability at Steps 4 and


        1
         ODAR also operates five National Hearing Centers (NHC). See SSA OIG, Role of the National Hearing
        Centers in Reducing the Hearings Backlog (A-12-11-11147), April 2012.
        2
            See 20 C.F.R. §§ 404.1560(b)(2) and 416.960(b)(2).
Page 2 - The Commissioner


5 of SSA’s 5-Step Sequential Evaluation Process. 3 At Step 4, an ALJ assesses the
claimant’s ability to perform past relevant work. At Step 5, an ALJ assesses the
claimant’s ability to perform any other work.

To meet the objective of our review, we examined Case Processing and Management
System (CPMS) reports to determine trends in VE use at the national, regional, and
hearing office levels. We interviewed managers, ALJs, and staff at ODAR
headquarters, the regions, and hearing offices to gain insights on the VE process. We
also examined the findings and recommendations from a 2006 ODAR Steering
Committee report on expert use and availability. Finally, we reviewed SSA’s VE blanket
purchase agreement (BPA) 4 and contacted VEs performing services at hearing offices,
as well as national VE associations, to gain greater perspective on VE services. See
Appendix D for a further discussion of our scope and methodology.

RESULTS OF REVIEW
Approximately 76 percent of all SSA hearings in Fiscal Year (FY) 2010 involved VEs.
However, we also found that regional and hearing office use of VE services varied
widely. For instance, regional use of VE services ranged from 35 to 94 percent, while
hearing office use varied from 4 to 99 percent. Some of this variance related to Federal
Court decisions on remanded cases, which can cause hearing offices to use VE
services at hearings to avoid remanded cases. Our analysis identified VE rotation
problems at hearing offices, which the hearing office managers stated were related to
availability of VEs and related scheduling difficulties. We also found that ODAR tracked
VE contracts but not individual VEs, making it difficult to identify potential availability
problems at hearing offices. Moreover, ODAR did not have a uniform national VE
advertisement program to address potential shortages. Finally, while VE contract rates
increased in 2009, ODAR had no process to ensure the VE rates were set at a level to
avoid potential shortages and ensure sufficient quality of services. We also identified a
number of payment processing issues that management should address to improve the
accountability of the VE program.




3
 See 20 C.F.R. §§ 404.1520(a)(4) and (e) and 416.920(a)(4) and (e). In addition, see Social Security
Ruling (SSR) 83-12 and 85-15. Appendix B discusses SSA’s 5-Step Sequential Evaluation Process.
4
  A BPA is an agreement between the Government and a vendor that gives the Government the option to
purchase goods or services from the vendor when needed at an on-call basis. The VE BPA terms of
agreement are for 60 months from the date of the award. The BPA also contains prices and costs for
services rendered by the VE, a complete description of the services, and other guidelines for fulfilling the
contract. SSA, Disability Vocational Expert Blanket Purchase Agreement Package, Acquisition Guidance,
Exhibit J—Insert SF1449, April 2009. See Appendix C for a description of the VE services provided to
the ALJ.
Page 3 - The Commissioner


TRENDS IN VOCATIONAL EXPERTS USE

We reviewed VE use at the national, regional, and hearing office level to identify
variances nationwide. We found that regional and hearing office use of VE services
varied widely.

Use of Vocational Experts – National Trends

In FY 2010, approximately 76 percent of all SSA hearings involved VEs (see Table 1).
To calculate this rate, we identified dispositions that required a hearing and determined
how many of those hearings involved VE services. 5 While ODAR reported
approximately 737,000 dispositions in FY 2010, we found that about 184,000 (25
percent) did not involve a hearing since the cases were decided on-the-record (OTR) or
dismissed. 6 Of the remaining dispositions with hearings, about 422,000 involved VE
services.

                                Table 1: VE Use at ODAR Hearings
                                           (FYs 2008 to 2010)
                        Categories                      FY 2008            FY 2009         FY 2010
       Dispositions Requiring a Hearing1                  405,691          477,749        553,355
       Dispositions with VE Testimony                     292,717          353,371        421,624
       VE Use Rates                                          72%             74%             76%
      Note 1: Favorable OTR cases and dismissals do not usually require VE services.

ODAR conducted approximately 129,000 more hearings with VEs in FY 2010 than in
FY 2008 (a 44-percent increase). Most of the increase in VE use was caused by a
greater volume of hearings over this period, from about 406,000 in FY 2008 to about
553,000 in FY 2010 (see Table 1). 7

Use of Vocational Experts – Regional Trends

In FY 2010, 6 of ODAR’s 10 regions had VEs testifying at over 80 percent of the
hearings (see Figure 1). The Denver Region had the highest VE use rate at 94 percent.
ALJs in the NHCs used VEs at 93 percent of their hearings. The New York Region had
the lowest use rate, with only 35 percent of the hearings using VE services.




5
 We did not exclude childhood cases, though VEs are not used at these hearings since the vocational
steps (Steps 4 and 5 of SSA’s 5-Step Sequential Evaluation Process) do not apply to children. Hence,
one would not expect a 100-percent VE use rate under our methodology.
6
    ALJs do not generally require VE services for OTRs or dismissals.
7
  The percent of dispositions requiring a hearing also increased during this period, from about 71 percent
in FY 2008 to about 75 percent in FY 2010.
Page 4 - The Commissioner


The New York Region has a long history of low VE use rates. A January 2001 Social
Security Advisory Board (SSAB) report noted that ALJ peer review data from 1997 and
1998 “…show that vocational experts were used in 9 percent of hearings in the
New York region and in 75 percent in the Chicago region.” 8 We discuss the New York
Region in greater detail in the next section.

                                                              Figure 1: Regional VE Use in FY 2010
        Region Including National Hearing Center




                                                         Boston                                              66%

                                                       New York                           35%

                                                    Philadelphia                                                               88%

                                                         Atlanta                                                    76%

                                                        Chicago                                                            85%

                                                          Dallas                                                           85%

                                                     Kansas City                                                   74%

                                                         Denver                                                                      94%

                                                   San Francisco                                                         81%

                                                         Seattle                                                               87%

       National Hearing Centers                                                                                                      93%

                                                                   0%   10%   20%   30%   40%   50%   60%   70%    80%    90% 100%
                                                                                    Percent of Hearings with VE

Use of Vocational Experts – Hearing Office Trends

In FY 2010, 65 hearing offices had VEs testifying at over 90 percent of their hearings,
(see Figure 2). The Mayaguez, Puerto Rico, Hearing Office had the highest percentage
at 99 percent of its hearings. Another 51 hearing offices had between 70 and
90 percent VE use at hearings, 22 offices had between 40 and 70 percent, and
13 offices had less than 40 percent. Of the 13 offices with the lowest VE use, 10 were
in the New York Region.




8
  Disability Decision Making: Data and Materials, SSAB, January 2001. It is not clear if the SSAB used
the same methodology as we did in our report, but the SSAB report indicated the New York Region had
the lowest VE use rate in the country.
Page 5 - The Commissioner


                     Figure 2: VE Use at Hearing Offices in FY 2010

                                   13 Hearing                   65
                                     Offices              Hearing Offices
                       22 Hearing
                         Offices




                       51
                 Hearing Offices


                     VE Usage at Hearings Greater than 90 Percent (65 Offices)
                     VE Usage at Hearings Between 70 and 90 Percent (51 Offices)
                     VE Usage at Hearings Between 41 and 70 Percent (22 Offices)
                     VE Usage at Hearings Less than 40 Percent (13 Offices)


   Note: In our analysis, we excluded 7 newly opened hearing offices that had fewer than
   200 dispositions in FY 2010.

We identified the four hearing offices with low VE use rates in FY 2010 and contacted
the hearing office chief administrative law judges (HOCALJ) to learn more about the low
rate (see Table 2). The HOCALJs stated that ALJ preference was the reason for the
low VE use in their offices. Furthermore, New York regional managers stated SSA
regulations do not require VE testimony, and Federal courts in the Second Judicial
Circuit ordinarily do not issue remand orders requiring that ALJs obtain VE testimony.

           Table 2: Hearing Offices with Lowest VE Use Rates in FY 2010
    Hearing Office               Region                    VE Use                Judicial Circuit
 Albany, NY                     New York                     4%                     Second
 Syracuse, NY                   New York                     6%                     Second
 New Haven, CT                   Boston                     12%                     Second
 Greensboro, NC                  Atlanta                    16%                      Fourth

To understand the varying use of VE services at the regions and hearing offices, we
asked ODAR if there had been any regulatory changes or Circuit Court rulings
concerning the use of VEs. ODAR stated although the Social Security Act and SSA
regulations allow the adjudicator complete discretion in determining whether to obtain
evidence from a VE, some Circuit Courts have clearly stated that evidence from the VE
is required under certain circumstances.
Page 6 - The Commissioner


In a 2006 internal report to the Chief ALJ, ODAR’s Medical and Vocational Expert
Workgroup (Workgroup) 9 concluded that Circuit Court rulings may impact VE rates. 10
However, the Workgroup also concluded that extreme variations in the use of experts in
disability hearings could not be explained by the legal requirements of the Social
Security Act, regulations, policy issuances, or Circuit Court case law. The Workgroup
recommended that ODAR establish a tracking system to better determine whether
Court rulings impact the use of experts in the different Judicial Circuit Courts. To date,
ODAR has not implemented the Workgroup’s recommendation.

AVAILABILITY OF VOCATIONAL EXPERTS

To assess the availability of VEs, we analyzed VE rotation at hearing offices, reviewed
the number of VEs contracting with SSA, and inquired about VE advertisement efforts.

Availability of VE Services at Hearing Offices

We identified possible VE availability issues at 23 hearing offices. Our data analysis
indicated 29 ALJs in 23 hearing offices had the same VE or VE organization testifying at
over 50 percent of their hearings. According to SSA policy, 11 the ALJ or designee must
select a VE from the roster in rotation to the extent possible. SSA policy also states that
when an ALJ selects a VE to provide expert opinion in a case, that VE will go to the
bottom of the roster and will not be called again by that, or any other, ALJ in the hearing
office until all other VEs on the roster are called. 12

We visited 6 of the 23 hearing offices and discussed VE rotation issues with managers,
ALJs, and staff (see Appendix E for our hearing office selection criteria). Managers in
four of the hearing offices stated they experienced problems scheduling VEs from their
local areas. As a result, the hearing offices used VEs from their regional roster, which
entailed long distance travel or telephone testimony. Unfortunately, according to
schedulers, VEs on the regional roster were not always available unless the hearing
9
 SSA established the Workgroup to issue a one-time report on the discrepancy of medical/vocational
expert use. The Workgroup examined practices related to expert use and recommended ways to ensure
appropriate and consistent use of experts.
10
  The Workgroup report explained a number of Court rulings that might have an effect on VE usage in
some jurisdictions. In one example, the report explained, “Although all the Circuits are bound by the
regulatory language in 20 C.F.R. 404.1560 and 416.960, in a 1987 ruling, Smith V. Bowen, the 4th
Circuit Court precluded VE input at Step 4 of the 5-Step Disability process. Although the Circuit Court
case law would not change the use of VEs at Step 5, it could result in ALJs in the 4th circuit obtaining less
VE input overall because they have been precluded from using this evidence at Step 4.”
11
  SSA policy indicates that each regional office maintains a roster of VEs who have agreed to provide
impartial expert opinion pursuant to a BPA with ODAR. If a VE is not available on the regional office
roster of the hearing office’s region, the ALJ should look to other regional office rosters to obtain the
services of a VE. SSA, Hearings, Appeals and Litigation Law Manual (HALLEX) I-2-5-52.D—Selecting a
Vocational Expert (September 28, 2005).
12
  Id. On June 3, 2011, Chief ALJ Bice sent a memorandum to all HOCALJs and hearing office directors
(HOD) addressing a number of processing issues, including the need to rotate expert witnesses.
Page 7 - The Commissioner


office could provide them with a full schedule of hearings for the day. As a complicating
factor, some ALJs preferred in-person VE testimony and were unwilling to hear VE
testimony over the telephone. We found that 17 of 18 ALJs we interviewed preferred
the VE testify in person at the hearing. One ALJ we interviewed stated that SSA
regulation 13 does not specifically allow telephone testimony.

We also spoke to 18 of the VEs providing services to the 6 hearing offices to learn more
about their hearing participation. We found that seven of the VEs preferred in-person
testimony at hearings, seven VEs preferred participating by telephone or video
conference, and the remaining four VEs had no clear preference. We also met with a
representative from one of the VE associations who stated he met with ODAR staff to
discuss the installation of video equipment at a VE’s place of business under the
Representative Video Project (RVP). Under RVP, claimant representatives install video
equipment at their place of business to conduct hearings with ALJs located elsewhere. 14

When we shared these VE rotation issues with ODAR managers and staff at ODAR
headquarters, we were told they were aware of scheduling difficulties in some parts of
the country. For instance, they explained that NHCs use VEs from the same area as
the hearing offices they are assisting, which leads to scheduling problems. This may
also happen if two hearing offices located near one another are vying for the same pool
of VEs. ODAR managers stated they can create management information reports, as
needed, to track VE usage at the national, regional, and hearing office levels to identify
VE rotation problems. We requested an example of this management information
report, but it was not available during our review.

Number of VE Contracts

Using ODAR’s management information, we could not determine how many individual
VEs were available to its hearing offices. As of August 2011, ODAR had 1,079 signed
VE BPAs nationwide. However, ODAR did not maintain a centralized database for
tracking VEs under these contracts, and CPMS did not contain complete and reliable
information. In our review of FY 2010 CPMS data, we found the system recorded the
name of the VE organization rather than the name of the individual VE. For instance, as
part of our audit work at the Pittsburgh Hearing Office, we learned that one VE
organization employed three VEs. To quantify the actual number of VEs working at the



13
   20 C.F.R. § 404.950(a) states that, “Any party to a hearing has a right to appear before the ALJ, either
in person or, when the conditions in § 404.936(c) exist, by video teleconferencing, to present evidence
and to state his or her position. A party may also make his or her appearance by means of a designated
representative, who may make the appearance in person or by video teleconferencing.” However, SSA’s
HALLEX provides that live testimony in person, by telephone, or by video teleconference with opportunity
to question the VE is the preferred method for obtaining VE opinion, but written interrogatories may be
used. HALLEX I-2-5-57.A—Obtaining Vocational Expert Opinion Through Interrogatories (November 3,
2010).
14
     SSA OIG, Representative Video Project (A-05-09-19101), August 2011.
Page 8 - The Commissioner


six hearing offices we visited, we reviewed the VE rosters to determine the number of
BPAs and VEs at each location (see Table 3). We found that two of six hearing offices
had more than one VE per BPA.

                 Table 3: FY 2011 Analysis of BPAs and Number of VEs
                     Hearing Office        Number of BPAs          Number of VEs
                  Chicago, IL                    3                      5
                  Creve Coeur, MO                3                      3
                  Denver, CO                    17                     17
                  Little Rock, AK               10                     10
                  New York City, NY              4                      4
                  Pittsburgh, PA                 4                      6
                  Total BPAs                    41                     45

Outreach for VE services

ODAR did not have a unified national strategy to advertise for VE services. ODAR
managers stated regions advertised for VE services mainly by word of mouth, and one
region stated it used the Internet. In our interviews with 18 VEs working with 6 hearing
offices, 15 VEs said they learned about VE opportunities through word-of-mouth. These
VEs cited such various sources as (1) another VE, (2) an ALJ or attorney, and
(3) professional VE conferences. None of the VEs was aware of dedicated SSA
outreach or an advertising campaign for VE services. 15 The lack of SSA outreach may
lead to a more limited pool of qualified candidates and deprive potential candidates of
an opportunity to participate in the program. In its 2006 report, the Workgroup also
recommended that better advertising methods be devised for VEs. However, at the
time of our audit, ODAR had not implemented this recommendation.

VE FEES AND AGENCY COSTS

VEs are paid a fee for each service provided, including studies, appearance at a
hearing, and participation in discussions with ALJs and personnel in ODAR
headquarters. For instance, a VE reviewing a claimant’s file and testifying at a hearing
in FY 2010 would have received $121, $44 for the study and $77 for the appearance at
the hearing. 16




15
  SSA posted a solicitation for VE services using FedConnect, a Federal acquisition, and grants Website.
The solicitation was open from March 31 to December 31, 2011.
16
  VEs would receive a smaller fee for subsequent hearings on the same day. See Appendix C for more
on the fees.
Page 9 - The Commissioner


SSA paid approximately $50 million in VE fees in FY 2010, 17 representing about
47 percent of ODAR’s total fees paid to experts. Among the other experts, fees paid to
hearing reporters were 30 percent of the FY 2010 fees, while the medical experts cost
was 17 percent (see Table 4).

                        Table 4: FY 2010 Hearing Expert Costs at Hearings
                                              Total Money Paid in Fiscal
                    Expert Type                                                   Percent
                                                      Year 2010
            Vocational Expert                        $ 49,474,551                     47
            Hearing Reporter                         $ 31,724,647                     30
            Medical Expert                           $ 18,485,423                     17
            Interpreter                              $ 2,845,011                       3
            Contractor Travel                        $ 3,671,561                       4
            Totals                                   $106,201,193                    100
           Note: Numbers do not add to 100 percent because of rounding.

Agency VE costs have increased for a number of reasons, including (1) an increase in
the number of hearings, 18 (2) a higher rate of VE testimony at hearings, 19 and (3) an
increase in the fee rates paid to VEs. 20

ODAR managers were unable to identify any studies or benchmarks developed by the
Agency to determine whether the VEs’ fees were reasonable or consistent with VE fees
paid by other Government entities or their private sector equivalents. Moreover,
determinations on hiring and necessary credentials were delegated to the regional level,
with no central repository identifying the skills and credentials of VEs working for the
Agency. 21 As a result, it was unclear why the fees were set at this level and what level
of expertise was required from the VEs.

In our conversations, we found the 18 VEs providing services to the 6 hearing offices as
well as representatives from 2 VE associations to be evenly divided on the whether
SSA’s VE fees were sufficient compensation for the services performed. We attempted
to determine the average earnings of a VE at SSA but found it difficult to do with the
existing management information. 22 While we were able to obtain Calendar Year (CY)


17
   For the 421,624 hearings in FY 2010 with VE testimony in Table 1, the average VE fee per hearing was
approximately $119.
18
   See Table 1.
19
     Id.
20
 In April 2009, SSA raised VE fees on a variety of services an average of 10 percent. At the same time,
SSA reduced reimbursements for mileage and parking.
21
     See Appendix C for information on expected VE knowledge.
22
  SSA earnings may be part of a VE’s annual compensation since a VE could be contracting with
multiple organizations. For example, we found that some of the VEs we interviewed were providing
services to a number of Government and private organizations.
Page 10 - The Commissioner


2010 VE payments associated with the six hearing offices we visited, 23 we could not
always determine an individual VE’s annual earnings since some of the payments were
related to VE organizations. For example, one SSA payment of about $266,000 for
CY 2010 appeared to relate to multiple VEs working for the same firm.

CONTROLS OVER VE PAYMENTS

During our hearing office visits, we found ODAR could strengthen controls related to the
approval of, and payment for, VE services.

VE Call Orders

During our interviews at six hearing offices, we found that ALJs at two offices were
signing the VE call orders before the hearing. A VE call order contains a list of all the
hearings the VE has been contracted to perform with an ALJ for a particular day. By
signing the call order after the hearing, the ALJ acknowledges the VE was present at
the hearings and performed the required services. The BPA guidelines instruct the ALJ
to sign the VE call order at the end of the hearing.

        The presiding ALJ or Administrative Appeals Judge (AAJ) will perform inspection
        and acceptance of the hearings-related services at the time the services are
        rendered. The ALJ's/AAJ’s signature as the "Receiving Official" on the original
        Call Order Form serves as documentation of acceptance. The ALJ/AAJ shall
        only sign as the receiving official after the contractor has signed the form.

When an ALJ signs the call order before the VE provides the services, the risk
increases that the VE will be paid erroneously should the hearing be postponed or
canceled. One management analyst 24 told us she had to rectify an overstated VE
invoice because it did not account for a postponed hearing. In this case, the VE
provided a copy of the call order the ALJ signed, even though the CPMS electronic
record showed the hearing was postponed.

When we spoke to the ALJs about their signatures on the call orders before the hearing,
they said they were unaware of any policy that prohibited them from doing so. While we
could not determine how many call orders may have been incorrectly signed before the
hearings, hearing offices postponed about 200,000 hearings nationwide between FYs
2009 and 2011. We notified the HODs in both hearing offices about this issue, and, as
a result, the HODs issued memorandums to their ALJs reminding them to sign the call
order after the hearing and after the VE had signed it. We believe such reminders as
well as additional guidance in HALLEX may reduce the risk of improper payments to
VEs.


23
  We reviewed the Internal Revenue Service 1099-MISC Forms SSA sends to the VEs at the end of the
tax year.
24
  As part of the reconciliation process, management assistants in the hearing offices are responsible for
verifying that VE invoices and VE call orders match the electronic record in CPMS.
Page 11 - The Commissioner


Batch Editing of VE Call Orders

All six administrative assistants at the hearing offices we visited stated the VE call order
verification process was too cumbersome because CPMS does not contain a batch edit
function to process VE call orders efficiently. 25 One of the hearing office administrative
assistant’s tasks is to ensure the payments made to VEs are appropriate and supported
by verifying the VE invoice against the VE call order in CPMS. After verifying every
invoice, the administrative assistant must close out each record, one at a time. A batch
edit button can save time by automating the repetitive task of closing each case
individually.

Administrative assistants in five of the six hearing offices we visited estimated that 5 to
15 hours of staff time per month could be saved if a batch edit button were added to
CPMS for VE call orders. CPMS already has a batch edit button for call orders related
to hearing reporters, another set of contractors at the hearing offices. We shared our
observation with ODAR headquarters managers, who stated ODAR is planning to
include a batch editing function in a future CPMS release.

Timeliness of Payments

Both SSA managers and VE contractors expressed concerns about untimely VE
payments. Five of the six HODs at the visited offices stated VEs complained of
untimely payments in the last year. Moreover, the representative from a VE association
as well as 13 of the 18 VEs we interviewed stated SSA was not timely reimbursing VEs
for their services. SSA’s BPA for VEs states, “The VE Contractor will be paid via
Electronic Funds Transfer within 30 calendar days after submitting a proper invoice to
the Agency.” 26

The VE association and VEs we interviewed also noted the Agency was unresponsive
to such matters. Four of the 18 VEs interviewed mentioned problems with the Agency’s
responsiveness regarding their payment inquiries, including the Agency’s failure to
respond to telephone calls, faxes, and emails regarding the status of their invoices.
One VE specifically mentioned that the Agency was not effective in communicating the
specific errors in the invoices, which further delayed the payment to the VE.

ODAR headquarters managers attributed the delayed payments to a number of issues,
including invoices with coding errors and VEs who failed to update information in the
Central Contractor Registration (CCR) database. 27 Under the Prompt Payment Act,
SSA has 30 days from the date the designated SSA office receives the invoice to pay it

25
     A batch edit would allow multiple items to be processed at the same time rather than only one item.
26
     See section D-2 (Invoicing) of the BPA.
27
  Beginning on October 1, 2003, individuals, businesses and organizations were required to register in
the CCR database (http://www.ccr.gov) to receive a contract, purchase order, or BPA from the
Government. The CCR, managed by the Defense Information Systems Agency in the Department of
Defense, is the primary vendor database for the Government.
Page 12 - The Commissioner


if all the goods and services billed were received. However, ODAR managers noted
that the 30 days start when the Agency receives a complete and accurate invoice,
which they stated was not the case with some of the invoices. To address the payment
problems, ODAR managers stated they provided additional training to the hearing office
staff processing the invoices. In addition, SSA managers have discussed these
problems with at least one VE association. For example, in August 2011, ODAR
managers coordinated with a VE association to improve communication with its
members and make them aware of these invoicing issues.

CONCLUSION AND RECOMMENDATIONS
We found that regional and hearing office use of VE services varied widely, with some
of this variance potentially related to outside factors beyond the control of the ALJ
conducting the hearing. Some hearing offices noted they had problems scheduling VEs
for hearings, and ALJ preference for in-person VE testimony may have further
complicated such scheduling. The lack of VE service contracting detail made it difficult
to identify potential availability problems at hearing offices. Nonetheless, it is possible
that improved advertising for VEs could increase the pool of available VEs at hearing
offices. We also found that ODAR had no process to ensure the VE rates were set at a
level to avoid potential shortages and ensure sufficient quality of services. Finally, we
identified a number of payment processing issues that management will need to
address to improve the accountability of the VE program. This includes more attention
to payment timeliness and communication with VEs, which could further enhance the
program and make it more attractive to potential candidates.

To ensure a more effective VE program, we recommend SSA:

1. Modify the regulations to allow VE telephone testimony at hearings.
2. Improve advertising for VE services, which could include assisting regions or
   developing a national campaign.
3. Periodically determine whether VE fees are appropriate to obtain the required level
   of VE services, which could include benchmark studies with VE fees paid in the
   national economy or VE fees paid by other Government entities.
4. Remind ALJs about the proper procedures for approving VE call orders.
5. Ensure future upgrades to CPMS include batch editing for processing VE invoices.
6. Communicate with VEs about invoicing issues that may delay payments, which may
   include a Website, mailings, or similar outreach efforts. The outreach efforts should
   also clearly identify SSA points of contact to timely address and resolve future
   payment issues.
Page 13 - The Commissioner


AGENCY COMMENTS
SSA agreed with the recommendations (see Appendix F). The Agency also provided
technical comments, which we incorporated, as appropriate.




                                     Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Process for Evaluating Disability in Adults

APPENDIX C – Vocational Expert Services

APPENDIX D – Scope and Methodology

APPENDIX E – Hearing Office Selection Criteria

APPENDIX F – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
Act      Social Security Act
AAJ      Administrative Appeals Judge
ALJ      Administrative Law Judge
CCR      Central Contractor Registration
BPA      Blanket Purchase Agreement
C.F.R.   Code of Federal Regulations
CPMS     Case Processing and Management System
FY       Fiscal Year
HALLEX   Hearings, Appeals and Litigation Law Manual
HOCALJ   Hearing Office Chief Administrative Law Judge
HOD      Hearing Office Director
ODAR     Office of Disability Adjudication and Review
OIG      Office of the Inspector General
OTR      On-the-Record
POMS     Program Operations Manual System
RFC      Residual Functional Capacity
SGA      Substantial Gainful Activity
SSA      Social Security Administration
SSAB     Social Security Advisory Board
SSN      Social Security Number
U.S.C.   United States Code
VE       Vocational Expert
                                                                                      Appendix B

Process for Evaluating Disability in Adults
Under the Social Security Act (Act), an adult is considered disabled if he or she is
unable to engage in substantial gainful activity (SGA) 1 by reason of a medically
determinable physical or mental impairment. Such impairment must last, or be
expected to last, for a continuous period of not less than 12 months or result in death. 2

The Social Security Administration (SSA) has a 5-Step sequential process for
evaluating disability for adults that follows the definition of disability in the Act. 3 The
Steps are followed in order. If a decision about disability can be made at a step, the
analysis stops, and a decision is made. If a decision about disability cannot be made,
the adjudicator proceeds to the next step.

At Step 1, SSA generally considers whether the claimant is performing SGA. If the
claimant is performing SGA, SSA finds that he/she is not disabled, regardless of the
severity of his/her impairment(s). If the claimant is not performing SGA, the claim is
sent for a determination of whether the claimant is disabled at a later step in the
process. When the claim is initially developed, the adjudicator generally requests all
evidence needed for consideration at Steps 2 through 5 of the sequential evaluation
process. The adjudication process stops when a decision regarding disability can be
made at any step. 4 At Step 2, SSA determines whether the claimant’s impairment—or
combination of impairments—is severe. 5 If the claimant does not have a severe
medically determinable impairment(s) that meets the duration requirement, the claim is
denied. If the claimant has a severe medically determinable physical or mental

1
  SGA means work that involves doing significant and productive physical or mental duties that is done for
pay or profit. 20 C.F.R. §§ 404.1510 and 416.910. Also see 20 C.F.R. §§ 404.1572, and 416.972. In
Calendar Year 2011, "countable earnings" of employees indicate SGA and "countable income" of self-
employed individuals are "substantial" if the amount averages more than $1,000 per month for non-blind
individuals or $1,640 for blind individuals. See also SSA, POMS, DI 10501.001—Meaning of SGA and
Scope of Subchapter and 10501.015 B and C—Table of SGA Earnings Guidelines and Effective Dates
Based on Year of Work Activity.
2
 The Act §§ 216(i)(1)(A) and 223(d)(1)(A), 42 U.S.C. §§ 416(i)(1)(A) and 423(d)(1)(A), and §
1614(a)(3)(A), 42 U.S.C § 1382c(a)(3)(A). See also 20 C.F.R. §§ 404.1505 and 416.905.
3
    20 C.F.R. §§ 404.1520 and 416.920.
4
 If the claimant disagrees with the Agency’s initial disability determination, he or she can file an appeal
within 60 days from the date of notice of the determination. In most cases, there are three levels of
administrative review (1) reconsideration by the disability determination services, (2) hearing by an
administrative law judge, and (3) request for review by the Appeals Council. If a claimant is still
dissatisfied after exhausting administrative remedies, he or she can appeal to the Federal courts.
5
 An impairment or combination of impairments is not severe if it does not significantly limit an individual’s
physical or mental ability to do basic work activities. 20 C.F.R. §§ 404.1520(c), 404.1521, 416.920(c) and
416.921. See also Social Security Ruling 85-28.


                                                     B-1
impairment(s) that meets the duration requirement, the Agency goes to Step 3 and
looks to the Listing of Impairments. If the severity of the impairment meets or medically
equals a specific listing and meets the duration requirement, the individual is
determined to be disabled.

If the individual’s impairment does not meet or medically equal a listing, the Agency
goes to Step 4, and, if necessary, Step 5. At Step 4, the Agency determines whether
the claimant can perform any past relevant work, considering his or her residual
functional capacity (RFC) 6 and the physical and mental demands of the work he or she
did. If the claimant can perform past relevant work, the claim is denied. If the claimant
cannot perform past relevant work, SSA goes to Step 5. At this Step, SSA determines
whether the claimant can perform any other work that exists in the national economy,
considering his or her RFC, age, education, and past work experience. If the claimant
can perform any other work, SSA finds him or her not disabled; if the claimant cannot
perform any other work, SSA finds him or her disabled. 7




6
  An individual’s impairment(s), and any related symptoms, such as pain, may cause physical and mental
limitations that affect what he or she can do in a work setting. The RFC is the most the individual can still
do despite these limitations. SSA assesses RFC based on all relevant evidence in the case record.
20 C.F.R. §§ 404.1545 and 416.945.
7
 SSA has another sequential process for evaluating whether a disabled beneficiary’s disability continues.
20 C.F.R. §§ 404.1594(f) and 416.994(b)(5). This process generally requires a showing of medical
improvement related to the ability to work, but also includes steps like the ones in the initial sequential
evaluation process.


                                                     B-2
                                                                                  Appendix C

Vocational Expert Services
According to the Social Security Administration’s (SSA) Vocational Expert Handbook, 1 a
vocational expert (VE) is a vocational professional who provides impartial expert opinion
that an administrative law judge (ALJ) considers when making a decision about
disability. VEs will usually testify in person at a hearing, although they may be asked to
testify by video teleconferencing technology or by telephone, and sometimes they may
provide opinions in writing by answering written questions called interrogatories.

VE RESPONSIBILITIES

ALJs use VEs in many cases in which they must determine whether a claimant can do
his or her previous work or other work. A VE provides both factual and expert opinion
evidence based on knowledge of

•   the skill level and physical and mental demands of occupations;

•   the characteristics of work settings;

•   the existence and incidence of jobs within occupations; and

•   transferrable skills analysis and SSA regulatory requirements for transferability of
    work skills.

EXPECTED VE KNOWLEDGE

•   Up-to-date knowledge of, and experience with, industrial and occupational trends
    and local labor market conditions.

•   An understanding of how SSA determines whether a claimant is disabled, especially
    at Steps 4 and 5 of SSA’s 5-Step Sequential Evaluation Process.

•   Current and extensive experience in counseling and job placement of people with
    disabilities.

•   Knowledge of, and experience using, vocational reference sources, including

            o the Dictionary of Occupational Titles and the Selected Characteristics of
              Occupations Defined in the Revised Dictionary of Occupational Titles;


1
 See Vocational Expert Handbook, Office of Disability Adjudication and Review, Office of the Chief
Administrative Law Judge, SSA, June 2011.


                                                  C-1
         o County Business Patterns published by the Bureau of the Census;

         o the Occupational Outlook Handbook published by the Bureau of Labor
           Statistics; and

         o any occupational surveys of occupations prepared for SSA by various
           State employment agencies.

VE SERVICES AND FEES

ALJ may request a variety of services from VEs as part of a hearing. These fees are
provided in Table C-1.

                   Table C-1: VE Services and Associated Fees
                           (Approved Fees as of April 2009))E
                              Services                           Fees
            Study                                               $44.00
            Remand Study                                        $66.00
            Written Interrogatory                               $39.00
            Evaluation of Additional Evidence                   $33.00
            First Hearing Appearance of the Day                 $77.00
            Other Hearing Appearance of the Day                 $39.00
            Participation in Discussions with ALJ as well as    $55.00
            Regional and Headquarters Offices
            Travel Expense - Per diem Government                Varies
            regulations, greater than 50 miles one way




                                            C-2
                                                                       Appendix D

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable Federal laws and regulations, including the Office of Disability
    Adjudication and Review (ODAR) Hearings, Appeals and Litigation Law manual.

•   Reviewed the Social Security Administration’s (SSA) 5-Step Sequential Evaluation
    Process for determining whether a claimant is disabled. See Appendix B for more
    information on the Process.

•   Reviewed previous Office of the Inspector General reports as well as relevant
    internal and external reviews of the vocational expert (VE) program.

•   Interviewed managers and staff at ODAR’s headquarters and regional managers to
    gain a better understanding of the role of VEs in the hearing process, the use and
    availability of VE services, and Agency controls over the program.

•   Examined ODAR management information reports as well as closed claims data
    from the Case Processing and Management Systems (CPMS) for Fiscal Years
    2008, 2009, and 2010 to determine VE usage and VE rotation at the national,
    regional, hearing office, and ALJ levels.

•   Identified hearing offices with potential VE rotation problems and visited six of these
    hearing offices to interview administrative law judges, managers and staff to assess
    the VE scheduling process and availability of VE services. See Appendix E for our
    hearing office selection methodology. During these visits, we also examined hearing
    office controls related to VE invoicing, approval, and payment.

•   Obtained a copy of the VE Blanket Purchase Agreement to determine the legal and
    educational requirements of VEs as well as the fees SSA pays for VE services.

•   Interviewed 18 VEs, 3 from each of the 6 hearing offices we visited, to learn about
    their experiences with SSA’s VE program.

•   Interviewed representatives at the American Board of Vocational Experts and
    International Association of Rehabilitation Professionals, both of which advocate for
    VE interests, to learn more about VE issues and VE experiences with SSA.




                                            D-1
We found that FY 2010 CPMS data were sufficiently reliable to meet our objective. The
entity audited was the Office of the Deputy Commissioner for Disability Adjudication and
Review. We conducted this audit from January through November 2011 in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.




                                          D-2
                                                                                       Appendix E

Hearing Office Selection Criteria
We examined the Office of Disability Adjudication and Review’s (ODAR) management
information reports as well as closed claims data from the Case Processing and
Management Systems for Fiscal Years 2008, 2009, and 2010 to determine vocational
expert (VE) use and VE rotation at the national, regional, hearing office, and
administrative law judge (ALJ) levels.

We identified possible VE availability issues at 23 hearing offices. Our data analysis
indicated 29 ALJs in 23 hearing offices had the same VE or VE organization testifying at
over 50 percent of their hearings. From these 23 hearing offices, we identified at least
1 hearing office in each region where an ALJ had over 50 percent of his/her total
dispositions with the same VE.
We also selected hearing offices based on their use of VE services. We calculated the
VE use rates by dividing the number of hearings including VE testimony by the number
of hearings held at a hearing office. 1 We then stratified hearing offices using the
following criteria.

      •   High VE use (greater than 70 percent).
      •   Medium VE use (greater than or equal to 40 percent and less than 70 percent).
      •   Low use (less than 40 percent).

HEARING OFFICES SELECTED FOR THIS REVIEW

Using the criteria above, we selected six hearing offices for further review. All of the
hearing offices we selected had rotation issues. Furthermore, we selected two hearing
offices with low VE usage, two with medium VE usage and two with high VE usage (see
Table E-1), ensuring we selected only one hearing office per region.

                  Table E-1: Hearing Offices Selected based on ALJ-VE Use
                                                                         Hearing Office
                       Hearing Office                Region
                                                                            VE Use
                  Chicago, IL                       Chicago                   Low
                  New York, NY                      New York                  Low
                  Pittsburgh, PA                   Philadelphia             Medium
                  Creve Coeur, MO                  Kansas City              Medium
                  Denver, CO                         Denver                   High
                  Little Rock, AR                     Dallas                  High




1
    Only hearing offices with at least 200 dispositions with a VE present were included in the analysis.
                  Appendix F

Agency Comments
                                       SOCIAL SECURITY
MEMORANDUM


Date:   May 7, 2012                                                             Refer To: S1J-3

To:     Patrick P. O’Carroll, Jr.
        Inspector General

From:   Dean S. Landis /s/
        Deputy Chief of Staff

Subject: Office of the Inspector General Draft Report, “Availability and Use of Vocational Experts”
        (A-12-11-11124)—INFORMATION

        Thank you for the opportunity to review the draft report. Please see our attached comments.

        Please let me know if we can be of further assistance. You may direct staff inquiries to
        Amy Thompson at (410) 966-0569.

        Attachment




                                                       F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“AVAILABILITY AND USE OF VOCATIONAL EXPERTS (VE)” (A-12-11-11124)


Recommendation 1

Modify the regulations to allow VE telephone testimony at hearings.

Response

We will explore proposing amendments to our rules that would allow telephonic testimony at
hearings.

Recommendation 2

Improve advertising for VE services, which could include assisting regions with recruiting or
developing a national recruiting campaign.

Response

We agree. We are currently developing an outreach effort targeted to expert associations and
organizations.

Recommendation 3

Periodically determine whether VE fees are appropriate to obtain the required level of VE
services, which could include benchmark studies with VE fees paid in the national economy or
VE fees paid by other Government entities.

Response

We agree. In April 2009, we raised the rates for VEs by 10 percent. Once our current blanket
purchase agreement for VEs expires, we will conduct the necessary research to ensure the VE
fees are appropriate.

Recommendation 4

Remind administrative law judges about the proper procedure for approving VE call orders.

Response

We agree.




                                               F-2
Recommendation 5

Ensure future upgrades to the Case Processing and Management System (CPMS) include batch
editing for processing VE invoices.

Response

As resources allow, we will upgrade the CPMS to provide for more efficient processing of VE
invoices.

Recommendation 6

Communicate with VEs about invoicing issues that may delay payments, which may include a
Website, mailings, or similar outreach efforts. The outreach efforts should also clearly identify
SSA points of contact to timely address and resolve future payment issues.

Response

We agree.




                                                F-3
                                                                         Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Chicago Audit Division

   Nicholas Milanek, Audit Manager, Crystal City Audit Office

Acknowledgments

In addition to those named above:

   Asad Isfahani, Auditor-in-Charge

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-12-11-11124.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
